                        U.S. Department of Agriculture
                            Office of Inspector General




Calendar Year 2010 Executive Order 13520,
      Reducing Improper Payments,
       High Dollar Report Review




                                Audit Report 50024-1-FM
                                               July 2011
                                United States Department of Agriculture
                                        Office of Inspector General
                                         Washington, D.C. 20250




DATE:              July 15, 2011

AUDIT
NUMBER:            50024-1-FM

TO:                Jon M. Holladay
                   Acting Chief Financial Officer
                   Office of the Chief Financial Officer

ATTN:              Kathy Donaldson
                   Audit Liaison Officer
                   Planning and Accountability Division

FROM:              Gil H. Harden /s/
                   Assistant Inspector General
                    for Audit

SUBJECT:           Calendar Year 2010 Executive Order 13520, Reducing Improper Payments,
                   High-Dollar Report Review


Executive Summary

Executive Order 13520 (Executive Order),1 Reducing Improper Payments, requires the Office of
Inspector General (OIG) to review quarterly reports on high-dollar overpayments identified by
agencies with high-risk programs, and to make recommendations, as necessary, to agencies’
plans to recover and prevent high-dollar overpayments.2

Our review disclosed that the Department of Agriculture (USDA) did not fully comply with the
requirements of the Executive Order and the Office of Management and Budget’s (OMB)
guidance and direction. Specifically, USDA’s high-dollar quarterly reports did not (1) meet the
required deadlines, (2) include all high-dollar overpayments, and (3) accurately reflect the
Department’s corrective actions intended to prevent future overpayments.

Further, we determined that USDA’s overpayment reporting format could be misleading. At the
time of our audit, the Department’s efforts to implement the Executive Order were still in
progress and it did not have adequate reporting processes in place. We believe that if USDA
addresses these concerns, its reports will be more transparent and accurate.

1
    74 Federal Regulation 62201, Executive Order 13520, Reducing Improper Payments, dated November 20, 2009.
2
    High-risk programs are programs susceptible to significant improper payments.
Jon M. Holladay                                                                                    Page 2


Your written response to the official draft report, dated July 7, 2011, is included at the end of the
report. Excerpts from the response and the Office of Inspector General's (OIG) position are
incorporated into the relevant sections of the report. Based on the information in your written
response, we have accepted your management decision on all three recommendations.

In accordance with Departmental Regulation 1720-1, final action must be taken within 1 year of
each management decision to prevent being listed in the Department’s annual Performance and
Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.

Background

The Executive Order signed on November 20, 2009, assists Federal agencies in reducing and
preventing improper payments through increased transparency and improved agency
accountability. The Executive Order mandates that Federal agencies submit quarterly reports on
any high-dollar improper overpayments identified by the agency to their respective OIG and the
Council of the Inspectors General on Integrity and Efficiency.

The Executive Order and supporting OMB guidance require that these quarterly high-dollar
reports (1) list all high-dollar overpayments identified by the agency during the quarter; (2)
describe whether each high-dollar overpayment was made to an entity or individual, including
the city, county, and State where that entity or individual was located; (3) list the program
responsible for each high-dollar overpayment error; (4) describe any actions the agency has
taken or plans to take to recover high-dollar overpayments; and (5) describe any actions the
agency will take to prevent overpayments from occurring in the future.

According to OMB’s guidance, a high-dollar overpayment is any overpayment that is in excess
of 50 percent of the correct amount of the intended payment under the following circumstances.3

    1. Where the total payment to an individual exceeds $5,000, as a single payment, or in
       cumulative payments for the quarter.

    2. Where the payment to an entity exceeds $25,000, as a single payment, or in cumulative
       payments for the quarter.

As of fiscal year 2010, USDA had 16 high-risk programs subject to the Executive Order’s high-
dollar overpayment reporting requirements. These 16 programs are administered by seven
component agencies, including the Commodity Credit Corporation (CCC), Food and Nutrition



3
 OMB Circular A-123, Appendix C, Part III, “Requirements for Implementing Executive Order 13520: Reducing
Improper Payments,” dated March 22, 2010.
Jon M. Holladay                                                                                        Page 3


Service (FNS), Rural Development, Natural Resource Conservation Service, Risk Management
Agency (RMA), Forest Service (FS), and Farm Service Agency (FSA).4

During fiscal year 2010, between January 2010 and September 2010, three of USDA’s 16 high-
risk programs reported high-dollar overpayments, totaling $888,002: RMA’s Federal Crop
Insurance Corporation (FCIC) Program Fund reported overpayments of $688,237;5 FS’ Wildland
Fire Suppression Management Program reported overpayments of $160,523; and FSA’s
Noninsured Crop Disaster Assistance Program reported overpayments of $39,242. During our
fieldwork, we determined that USDA recovered $241,600, and recovery efforts or offsets were in
progress for the remaining amounts.6

RMA’s FCIC provides American producers Federal crop insurance solely through approved
insurance providers that market and process claims for loss on crop insurance policies, upon
which these companies share the risk. FS’ Wildland Fire Suppression Management Program
manages wildland fires to protect human life, welfare, and property, and solicits various vendors
to carry out its mission. FSA’s Noninsured Crop Disaster Assistance Program provides financial
assistance to producers of noninsurable crops when a low yield, loss of inventory, or prevented
planting occurs due to natural disasters.

The Office of the Chief Financial Officer (OCFO) is responsible for coordinating and submitting
USDA’s high-dollar overpayments report. Based on the documentation provided and our
discussion with OCFO, FSA, RMA, and FS officials, reducing improper payments within these
programs continues to be a priority, and oversight is continuous. The Department has issued task
orders to implement various improper payment requirements, including the Executive Order. As
part of the Executive Order, the Department also publishes its quarterly high-dollar reports at
http://www.ocfo.usda.gov/qhd_reporting.html.

Objectives

As required by the Executive Order, we reviewed USDA’s quarterly high-dollar report to
determine if it complied with the Executive Order. The objective of our audit was to assess the
level of risk associated with the applicable programs, determine the extent of oversight
warranted, and provide the agency head with recommendations, if any, for modifying the
agency’s recovery and corrective action plans.




4
  FNS, FSA, and CCC have more than one high-risk program; therefore, there are more high-risk programs than the
component agencies that administer them.
5
  We did not include RMA’s second quarter high-dollar overpayments, which totaled approximately $11 million.
This amount was significantly inflated because RMA did not adjust its report to include only those overpayments
that met OMB’s high-dollar overpayment criteria. They have since corrected this issue.
6
  Some overpayments were not recoverable, due to statutory restrictions.
Jon M. Holladay                                                                                        Page 4


Scope and Methodology

Our review was for the limited purpose described in the objectives and would not necessarily
identify all deficiencies in internal controls for determining improper payments. We reviewed
USDA’s second, third, and fourth quarter high-dollar reports, received on July 1, 2010, October
22, 2010, and December 1, 2010, respectively.7 We also reviewed improper payment data
reported in USDA’s fiscal year 2010 corrective action plans. To accomplish our objectives, we
interviewed RMA, FS, and FSA officials involved with reporting high-dollar improper
overpayments for the FCIC Program Fund, the Wildland Fire Suppression Management
Program, and the Noninsured Crop Disaster Assistance Program. Additionally, we evaluated
supporting documentation provided by these officials. We performed our review at OCFO,
RMA, and FSA offices in Washington, DC, and held teleconferences with FS officials located in
Albuquerque, New Mexico. Fieldwork for this assessment was performed between
December 2010 and March 2011. We followed applicable Government Auditing Standards in
performing this assessment, and we believe the evidence obtained provides a reasonable basis for
our conclusions, based on our objectives.

Finding 1: Additional Actions Needed to Ensure Timely, Complete, and Transparent High-
Dollar Overpayment Reports

When submitting overpayment reports, USDA did not fully comply with the Executive Order
and OMB’s guidance. More specifically, in the course of our audit, we found that USDA
(1) submitted reports after the deadline, (2) did not report all high-dollar overpayments, and
(3) was not accurately reporting its corrective actions. Further, we determined that USDA’s
current reporting format for listing overpayment amounts could be misleading. These issues
occurred because the Department and its component agencies did not have adequate reporting
processes in place. Additionally, at the time of our audit, efforts to implement Executive Order
requirements were still in progress. As USDA implements Executive Order requirements, we
emphasize that untimely, incomplete, and misleading reports may not accurately portray the
progress each agency is making in recovering and preventing high-dollar overpayments.

Timeliness of Reports

We found the Department did not timely submit its quarterly high-dollar reports. While the
second quarter report was due May 19, 2010, the Department did not submit it until July 1; for
the third quarter, which was due July 30, 2010, the Department submitted its report nearly
3 months later, on October 22; and the fourth quarter was submitted on December 1, even though
it was due by October 30. When we spoke with OCFO officials, they were aware of the issue
and stated that the Department was working on actions to timely report high-dollar
overpayments, such as modifying component agencies’ deadlines for submission to OCFO and


7
    Executive Order 13520 did not require USDA to submit a first quarter report in fiscal year 2010.
Jon M. Holladay                                                                                      Page 5


consulting with OMB on an improved process. We agree that this is an appropriate course of
action and do not make any formal recommendations at this time.

Completeness of Reports

We found that agencies identified and corrected some high-dollar overpayments, but did not
report them on quarterly reports. For example, an OIG review reported that FSA’s Supplemental
Revenue Assistance Payment program disbursed an overpayment of $51,646.8 FSA verified and
recovered most of the overpayment in the fourth quarter; however, it was not listed in the high-
dollar report. This payment was omitted because the quarterly data FSA used to identify high
dollar overpayments did not include overpayments recovered during that quarter. FSA officials
stated that several other payments may have been omitted and they would modify FSA’s process
for identifying relevant overpayments to include receivables recovered during the quarter. We
agree with FSA’s corrective actions and formally recommend FSA modify its methodology for
identifying high-dollar overpayments to include overpayments recaptured during that quarter.

In addition, RMA had two overpayments, which included both premium and indemnity
payments in the amount of $309,827; however, on its quarterly report to the Department, RMA
reported only $285,975 in indemnity overpayments, and did not include the premium portions,
totaling $23,852. RMA omitted the premium overpayments because they were not over the
$25,000 threshold for an entity necessary for reporting.9 However, because these premium and
indemnity overpayments were disbursed on the same insurance policy to the same entity and
collectively meet the threshold—over $25,000 when combined—we determined that, in this
instance, RMA should have reported its premium overpayments. Therefore, we recommend that
RMA report premium and indemnity overpayments on its high-dollar overpayments report if
these payments are more than 50 percent of the correct amount, and collectively, more than
$25,000. OCFO officials agreed with this recommendation.

Accuracy of Reported Corrective Actions

We also found that some reported corrective actions did not accurately reflect the actual
corrective actions being taken to prevent future overpayments. In the report, the corrective
actions did not appear to address the actual cause of the overpayments. For example, some of
FSA’s overpayments were caused by system errors, but FSA reported unrelated corrective
actions (training field personnel on improper payments and reviewing policies and procedures)
that would not necessarily correct system errors. However, based on documentation received
during our audit, we found that FSA officials were addressing the system errors by enhancing the
software with internal controls to prevent incorrect rate calculations on future overpayments.




8
  Audit Report 50401-70-FM, USDA Consolidated Financial Statements for Fiscal Years 2010 and 2009, dated
November 15, 2010.
9
  RMA reports high-dollar overpayments by entity.
Jon M. Holladay                                                                              Page 6


We are not making any formal recommendations related to this issue; however, we stress that in
order to accurately portray its efforts to OIG, the Department and its component agencies should
report the actual corrective actions they take. From there, OIG can properly assess whether these
efforts address the cause of overpayments and will prevent future overpayments.

Transparency of Listed Amounts

Currently, USDA lists the sum of the correct payment and improper overpayment amount
together. This format can be misleading; while the definition of an improper payment can
technically include both the correct and overpayment amounts, listing the sum amount could
mislead the public into thinking that the entire amount listed is an overpayment. To improve
transparency and avoid the appearance of inflated overpayment amounts, we suggest that USDA
list the overpayment portion separately, next to the total amount disbursed.

Fiscal year 2010 was the first year of high-dollar overpayments reporting. As we continue to
review agencies’ methodologies to identify high-dollar overpayments and actions to prevent
future overpayments, we rely on the accuracy and completeness of these reports. From the
information in these reports, we will be able to assess downward trends in overpayments with
similar causes and whether agency actions are effective, and provide recommendations on
enhanced oversight and accountability. It is therefore critical that these reports accurately reflect
each agency’s work and status.

Recommendation 1

Direct FSA to modify its methodology for identifying high-dollar overpayments to include
overpayments recovered during the relevant quarter.

Agency Response

USDA officials concurred with this recommendation. USDA officials stated that while FSA
identified and corrected some high-dollar overpayments, it failed to report them on quarterly
reports. USDA plans to implement the following actions:

   ·   OCFO will revise the Departmental guidance for the Quarterly High-Dollar Overpayment
       Report. The revised guidance will reiterate and strengthen the requirement for USDA
       agencies with high-risk programs. It will incorporate a methodology and process to
       accurately identify, verify, and report high-dollar overpayments as outlined in the
       Executive Order and supporting Office of Management and Budget guidance; and

   ·   OCFO will direct FSA, through the revised Departmental guidance for the Quarterly
       High-Dollar Overpayment Report, to review and modify (if applicable) its methodology
       and process for identifying, verifying, and reporting high-dollar overpayments. This will
       ensure all high-dollar overpayments identified and verified during a quarter are included
       in FSA’s quarterly report provided to OCFO.
Jon M. Holladay                                                                           Page 7


OIG Position

We accept the Department’s management decision.

Recommendation 2

Direct RMA to report premium and indemnity overpayments on its high-dollar overpayments
report if these payments are more than 50 percent of the correct amount, and collectively, more
than $25,000.

Agency Response

USDA officials concurred with this recommendation. USDA officials stated that since these
premium and indemnity overpayments are disbursed under the same insurance policy to the same
entity, RMA should report the combined indemnity and premium overpayments when the
cumulative overpayments exceeds the threshold, and are more than 50 percent of the correct
amount. OCFO will direct RMA to report premium and indemnity overpayments, under the
same insurance policy to the same entity, if these payments are more than 50 percent of the
correct amount, and, collectively, more than $25,000 in its Quarterly High-Dollar Report.

OIG Position

We accept the Department’s management decision.

Recommendation 3

Include an additional column in the high-dollar report listing the overpayment amount next to the
total amount disbursed.

Agency Response

USDA concurred with OIG’s finding that the current reporting format of listing the sum of the
correct payment and the improper overpayment amounts together could be misleading. OCFO
revised the reporting format for the 2nd Quarter fiscal year 2011 High-Dollar Report to include
additional columns for the actual payment amount, correct payment, and overpayment amount.

OIG Position

We accepted the Department’s management decision, and verified that this recommendation was
implemented.
Abbreviations


CCC               Commodity Credit Corporation
Executive Order   Executive Order 13520
FCIC              Federal Crop Insurance Corporation
FNS               Food and Nutrition Service
FS                Forest Service
FSA               Farm Service Agency
OCFO              Office of the Chief Financial Officer
OIG               Office of Inspector General
OMB               Office of Management and Budget
RMA               Risk Management Agency
USDA              Department of Agriculture
Agency’s Response




                     USDA’S

       OFFICE OF THE CHIEF FINANCIAL
                  OFFICER

            RESPONSE TO AUDIT REPORT
United States
Department of                                                                          July 7, 2011
Agriculture

Office of the Chief
                      TO:           Gil H. Harden
Financial Officer                   Assistant Inspector General for Audit
                                    Office of Inspector General
1400 Independence
Avenue, SW
                      FROM:         Jon M. Holladay –s- John Brewer For
Washington, DC
20250
                                    Deputy Chief Financial Officer


                      SUBJECT:      Calendar Year 2010 Executive Order 13520,
                                    Reducing Improper Payments, High-Dollar Report Review
                                    Audit No. 50024-1-FM, Official Draft Report


                      This responds to your request for management’s response to the audit
                      recommendations in Audit No. 50024-1-FM, Official Draft Report, dated
                      June 13, 2011. The management response is attached.

                      If you have any questions or need additional information, please contact our
                      office at (202) 720-5539 or have a member of your staff contact
                      Kathy Donaldson at (202) 720-1893.

                      Attachment




                                          An Equal Opportunity Provider and Employer
               Calendar Year 2010 Executive Order 13520
         Reducing Improper Payments, High-Dollar Report Review
                         Audit No: 50024-1-FM



Recommendation No. 1. Direct Farm Service Agency (FSA) to modify its methodology for
identifying high-dollar overpayment to include overpayments recovered during the
relevant quarter.

Management Response: United States Department of Agriculture (USDA) concurs with
the Office of Inspector General’s (OIG) finding that, while FSA identified and corrected
some high-dollar overpayments, it failed to report them on quarterly reports.

The following actions are planned to address this recommendation:

   1) The Office of the Chief Financial Officer (OCFO) will revise the Departmental
      guidance for the Quarterly High-Dollar Overpayment Report. The revised guidance
      will reiterate and strengthen the requirement for USDA agencies with high-risk
      programs. It will incorporate a methodology and process to accurately identify,
      verify, and report high-dollar overpayments as outlined in the Executive Order and
      supporting Office of Management and Budget guidance; and
   2) OCFO will direct FSA, through the revised Departmental guidance for the Quarterly
      High-Dollar Overpayment Report, to review and modify (if applicable) its
      methodology and process for identifying, verifying, and reporting high-dollar
      overpayments. This will ensure all high-dollar overpayments identified and verified
      during a quarter are included in FSA’s quarterly report provided to OCFO.

Date Corrective Action Will be Completed: September 30, 2011

Responsible Organization: Director, Credit, Travel, and Grants Policy Division, Office of
the Chief Financial Officer


Recommendation No. 2. Direct Risk Management Agency (RMA) to report premium and
indemnity overpayments on its high-dollar overpayments report if these payments are
more than 50 percent of the correct amount, and, collectively, more than $25,000.

Management Response: USDA concurs with OIG’s finding that RMA omitted the premium
overpayments since it did not surpass the $25,000 threshold necessary for entity reporting.
Since these premium and indemnity overpayments are disbursed under the same
insurance policy to the same entity, RMA should report the combined indemnity and




                          An Equal Opportunity Provider and Employer
premium overpayments when the cumulative overpayments exceeds the threshold, and are
more than 50 percent of the correct amount.

The following action is planned to address this recommendation:

OCFO will direct RMA to report premium and indemnity overpayments, under the same
insurance policy to the same entity, if these payments are more than 50 percent of the
correct amount, and, collectively, more than $25,000 in its Quarterly High-Dollar Report.

Date Corrective Action Will be Completed: September 30, 2011

Responsible Organization: Director, Credit, Travel, and Grants Policy Division, Office of
the Chief Financial Officer


Recommendation No. 3. Include an additional column to the high-dollar report listing the
overpayment amount next to the total amount disbursed.

Management Response: USDA concurs with OIG’s finding that the current reporting
format of listing the sum of the correct payment and the improper overpayment amounts
together could be misleading.

OCFO revised the reporting format for the 2nd Quarter FY 2011 High-Dollar Report to
include additional columns for the actual payment amount, correct payment, and
overpayment amount.

The 2nd Quarter FY 2011 USDA High-Dollar Report with the revised format of additional
columns can be found at:
http://www.ocfo.usda.gov/USDA%20High%20Dollar%20Overpayment%20Report.pdf.

Date Corrective Action Was Completed: June 16, 2011

Responsible Organization: Director, Credit, Travel, and Grants Policy Division, Office of
the Chief Financial Officer




                                      2
